                     /


                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A02080041                                                                   Page 1 of 1



      On August 6,2002, a California university' notified us that they had initiated a misconduct
      inquiry in response to a complaint by a faculty membet. Specifically, Complainant alleged that
      subject3 fabricated an image while a post-doctoral fellow under NIH support in Complainant's
      lab. This image was subsequently included by Complainant in a successful NSF proposal4 as an
      example of his lab's research. We consulted with Office of Research Integrity and agreed that
      ORI should take the lead. On August 29, the university notified ORI of the conclusion of their
      inquiry and the initiation of an investigation. The inquiry report included a letter in which
      Subject admitted to fabricating the image and apologized.

      We conducted a records review and analysis to determine NSF's interests in this matter. With
      respect to Complainant's involvement, we concluded that his inclusion of a fabricated image in
      his NSF proposal was inadvertent. We then consulted the cognizant program officer to determine
      what role, if any, the image played in the funding process. The program officer analyzed the
      review materials and informed us that the image was not a factor in the merit review process or
      the award recommendation. We conclude that no harm was done to NSF and that this matter
      does not rise to a level that would merit further investigation on our part.

      With respect to Subject's involvement, we note that Subject was not supported by NSF when he
      allegedly fabricated the image, and he appears to have played no role in the preparation of
      Complainant's NSF proposal. We therefore conclude that we lack jurisdiction over the alleged
      act of fabrication. Nevertheless, to protect NSF's interests we diligently examined the proposal
      database and found that Subject subsequently submitted two successful NSF proposals. We
      examined these proposals and determined that they make no reference to the image in question or
      to the underlying research.

      We have coordinated with ORI and requested notification of the final disposition of this matter.
      Accordingly, this case is closed.




      ' [redacted]
       [redacted]
       [redacted]
       [redacted]


                         Agent                  Attorney               Supervisor                  AIGI

  Sign / date

                                                                                           OIG Form 2 (2102)
